               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       Timely Processing of Mail at the
       Pittsburgh, PA Processing and
             Distribution Center

                       Audit Report




                                         September 18, 2012

Report Number NO-AR-12-008
                                                                        September 18, 2012

                                              Timely Processing of Mail at the Pittsburgh,
                                                  PA Processing and Distribution Center

                                                             Report Number NO-AR-12-008



BACKGROUND:
The U.S. Postal Service is facing one of          mail during FY 2011, the bulk of it being
the most difficult challenges in its              Standard Mail. Among the 43 largest
history, recently reporting a net loss of         Postal Service facilities, the Pittsburgh
$5.2 billion in the third quarter of fiscal       P&DC ranked second highest, with
year (FY) 2012. FY 2012 will be the 6th           more than 12 percent delayed mail
year in a row that the Postal Service has         volume. The primary causes for the
reported a net loss from operations. One          excessive delayed mail were underuse
factor driving these losses is the                of mail processing equipment, poor mail
continual decline in mail volume, falling         flow, and failure to follow operating
from its peak of 213 billion pieces in            procedures. As a result, mail was not
FY 2006 to 166 billion in FY 2011.                processed in a timely manner, thereby
                                                  adversely impacting customer service
The Postal Service has more than 300              and jeopardizing Postal Service
plants with mail processing operations.           revenue.
Excessive delayed mail adversely
impacts mailers and U.S. Postal Service           WHAT THE OIG RECOMMENDED:
customers. An analysis of delayed mail            We recommended the district manager,
during FY 2011 identified the Pittsburgh,         Western Pennsylvania District, adjust
PA Processing and Distribution Center             workhours, assignments, and other
(P&DC) in the Western Pennsylvania                operational requirements to ensure the
District in the Eastern Area as a facility        Pittsburgh P&DC processes mail timely
with high delayed mail volume. In FY              as compared to similar-sized sites. We
2011, Standard Mail accounted for 51              also recommended the district manager
percent of mail volume and $17.8 billion          increase tray sorters’ capacity and
in revenue.                                       throughput and expand the windows of
                                                  operation. Further, we recommended
Our objective was to determine whether            the district manager improve mail flow
Pittsburgh P&DC employees processed               throughout the facility and train
mail in a timely manner.                          employees to ensure proper color
                                                  coding of Standard Mail according to
WHAT THE OIG FOUND:                               Postal Service policy.
The Pittsburgh P&DC experienced
difficulties with timely processing of all        Link to review the entire report
September 18, 2012

MEMORANDUM FOR:           ROBERT CINTRON
                          DISTRICT MANAGER, WESTERN PENNSYLVANIA
                          DISTRICT




FROM:                     Robert J. Batta
                          Deputy Assistant Inspector General
                           for Mission Operations

SUBJECT:                  Audit Report – Timely Processing of Mail at the Pittsburgh,
                          PA Processing and Distribution Center
                          (Report Number NO-AR-12-008)

This report presents the results of our audit of Timely Processing of Mail at the
Pittsburgh, PA Processing and Distribution Center in the Western Pennsylvania District
of the Eastern Area (Project Number 12XG026NO000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James Ballard, director,
Network Processing, or me at 703-248-2100.

Attachments

cc: Jordan M. Small
    David E. Williams, Jr.
    Frank Neri
    John M. Bender
    Deborah Giannoni-Jackson
    Corporate Audit and Response Management
Timely Processing of Mail at the Pittsburgh, PA                                                                    NO-AR-12-008
 Processing and Distribution Center



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Delayed Mail Trends and Site Comparisons ................................................................... 2

   Machine Capacity and Productivity .............................................................................. 3

   Mail Flow ..................................................................................................................... 4

   Color Coding of Standard Mail ..................................................................................... 7

Management Action ........................................................................................................ 8

Recommendations .......................................................................................................... 8

Management’s Comments .............................................................................................. 9

Evaluation of Management’s Comments ......................................................................... 9

Appendix A: Additional Information ............................................................................... 10

   Background ............................................................................................................... 10

   Objective, Scope, and Methodology .......................................................................... 10

   Prior Audit Coverage ................................................................................................. 11

Appendix B: Pittsburgh Processing and Distribution Center Fiscal Year 2011 Delayed

   Mail as a Percentage of First-Handled Pieces Compared to Similar-Sized Facilities 12

Appendix C: Management’s Comments ........................................................................ 13
Timely Processing of Mail at the Pittsburgh, PA                                                    NO-AR-12-008
 Processing and Distribution Center


Introduction

This report presents the results of our audit of the timely processing of mail at the
Pittsburgh, PA Processing and Distribution Center (P&DC) in the Western Pennsylvania
District of the Eastern Area (Project Number 12XG026NO000). Our objective was to
determine whether mail at the Pittsburgh P&DC was processed in a timely manner. This
self-initiated audit addresses operational risk. See Appendix A for additional information
about this audit.

Excessive delayed mail adversely impacts mailers and U.S. Postal Service customers.
A review of delayed mail during fiscal year (FY) 2011 identified the Pittsburgh P&DC as
a facility with high delayed mail volume. The Pittsburgh P&DC is in the Western
Pennsylvania District of the Eastern Area. The Pittsburgh P&DC processed 1.75 billion
mailpieces during FY 2011. Additionally, as part of the Postal Service’s network
realignment process, the Pittsburgh P&DC is scheduled to absorb mail volume from
several surrounding facilities.1

                                   Figure 1: The Pittsburgh P&DC




                 Source: U.S. Postal Service Office of Inspector General (OIG) photograph,
                 dated June 29, 2012.

Conclusion

The Pittsburgh P&DC experienced difficulties with the timely processing of all mail
during FY 2011, with the bulk of the delays being in Standard Mail. Although timely
processing of mail at the Pittsburgh P&DC improved during the first three quarters of
FY 2012, additional opportunities for improvement exist. The primary causes for the
excessive delayed mail were underutilization of mail processing equipment, poor mail


1
 Pittsburgh will receive additional equipment from the New Castle and Greensburg Processing and Distribution
Facilities (P&DFs).
                                                          1
    Timely Processing of Mail at the Pittsburgh, PA                                                                NO-AR-12-008
     Processing and Distribution Center


    flow, and failure to follow color-coding2 procedures. Delayed mail impacts customer
    service and adversely affects mailers, thereby, placing Postal Service revenue at risk3.
    During the audit, management began to take corrective action in numerous areas.

    Delayed Mail Trends and Site Comparisons

    Delayed mail volume at the Pittsburgh P&DC increased from more than 156 million
    pieces in FY 2010 to more than 222 million pieces in FY 2011. This represented an
    increase of more than 40 percent, while mail volume increased by only about 10 percent
    (see Table 1).

                 Table 1: Pittsburgh P&DC Delayed Mail Trends, FYs 2010 to 2011

                                                                                             Mail Volume: Total
                                                                                            First-Handled Pieces
                                                        Total Delayed Mail                         (FHP)4
 FY 2010                                                       156,309,636                           1,591,090,882
 FY 2011                                                       222,129,520                           1,754,353,264
 Increase in Delayed Mail Volume                                 65,819,884                            163,262,383
 Percent Change                                                     42.11%                                 10.26%
Source: Enterprise Data Warehouse (EDW), as of July 1, 2012.

    During FY 2012, the Pittsburgh P&DC has shown improvements in reducing delayed
    volume through increased processing efficiency and the decline in mail volume. During
    Quarters 1 and 2, FY 2012, delayed mail volume decreased more than 27 and 51
    percent, respectively, compared to the same periods in FYs 2010 and 2011.
    Similar-sized facilities reported less than a 24 and 41 percent reduction during the same
    period. Standard Mail accounted for 94 percent of all delayed mail at the Pittsburgh
    P&DC during this period.

    For FY 2011, the Pittsburgh P&DC had the second highest percentage of delayed mail
    as a percentage of total mail or FHP volume among similar-sized facilities with
    12.66 percent. Percentages ranged from 13.41 percent to 0.18 percent with an average
    of 4.86 percent (see Appendix B).

    Furthermore, when we ranked (the lower the ranking, the higher the amount of delayed
    mail) the Pittsburgh P&DC with 43 similar-sized facilities by mail class in FY 2011, we
    found it had:

       222 million pieces of total delayed mail, ranking it second among the facilities.

    2
      The Postal Service uses a system of color coding to facilitate timely movement of Standard Mail. The color-coding
    process assigns a color to each day of the week. This enables easy processing of mail using the first-in, first-out
    (FIFO) method.
    3
      Postal Service revenue at risk will be reported in the OIG audit Timeliness of Mail Processing in the Processing and
    Distribution Network (to be issued late September 2012).
    4
      A letter, flat, or parcel that receives its initial distribution at a Postal Service facility. FHP records mail volume in the
    operation where it receives its first distribution handling.


                                                                   2
Timely Processing of Mail at the Pittsburgh, PA                                                        NO-AR-12-008
 Processing and Distribution Center



   1.6 million pieces of delayed First-Class™ Mail, ranking it 18th among the facilities.
   10.2 million pieces of delayed Periodicals, ranking it fifth among the facilities.
   210 million pieces of delayed Standard Mail, ranking it second among the facilities.

The President’s Commission on the U.S. Postal Service report, dated July 31, 2003,
states that the mission of the Postal Service is:

         . . . to provide high-quality, essential postal services to all persons and
         communities by the most cost-effective and efficient means possible
         at affordable and, where appropriate, uniform rates.

39 U.S.C., Part 1, Chapter 4, §403, states:

         The Postal Service shall plan, develop, promote, and provide adequate and
         efficient postal services at fair and reasonable rates and fees.

The primary causes for excessive delayed mail were:

   Underuse of mail processing equipment.
   Poor mail flow, due to inadequate floor plan layout and floor congestion.
   Improper color-coding of mail.

In FY 2011, Standard Mail accounted for 51 percent of mail volume and $17.8 billion in
revenue. Excessive delayed mail adversely impacts mailers and Postal Service
customers.

Machine Capacity and Productivity

The Pittsburgh P&DC generally had sufficient machine processing capacity to process
its mail timely. However, opportunities exist to better use the high-speed tray sorter5
(HSTS) and the low-cost tray sorter6 (LCTS) to separate trayed mail for further
processing on another mail-processing machine. The HSTS and the LCTS can be
operated for 23 hours per day with 1 hour of maintenance. Since Quarter 3, FY 2011,
the average daily run time on the LCTS has often been below 6 hours a day. While
average daily run time on the HSTS has been about 19 hours per day, productivity is
well below national averages.

In addition, during observations, we noted the Pittsburgh P&DC did not staff all loading
points of the HSTS. Management at the Pittsburgh P&DC indicated letter mail trays that
were not sorted timely for processing on the delivery bar code sorters caused the


5
 An automated tray system able to sort 3,000 trays per hour to 52 separations.
6
 Mechanized tray sorters are not standardized, but usually involve trays traveling on a main conveyor until they are
displaced into one of the system's runouts where they may receive additional manual separations. These machines
are commonly called low-cost tray sorters.


                                                          3
Timely Processing of Mail at the Pittsburgh, PA                                                       NO-AR-12-008
 Processing and Distribution Center


majority of their delayed mail. By increasing machine runtime, the Pittsburgh P&DC
could process more mail and minimize delayed mail volumes.

Rather than efficiently using available capacity at the Pittsburgh P&DC, the facility has
used other local processing facilities to process some of the mail trays. However, future
consolidations of Postal Service processing facilities may eliminate this option. One
option the Pittsburgh P&DC is considering is purchasing an additional HSTS to increase
processing capacity.

                                           Figure 2: The HSTS




            Source: OIG photograph, dated June 26, 2012, 12:15 p.m. The Pittsburgh P&DC has one
            high-speed tray sorter. It runs incoming First-Class Mail, Standard Mail, and outgoing mail
            during all three tours.

Mail Flow

We found that poor mail flow was a major impediment in the timely processing of mail at
the Pittsburgh P&DC. Our observations revealed poor floor plan layout and floor
congestion caused by unprocessed mail transportation equipment (MTE).

Processing plants generate empty MTEs whenever a tray of mail is emptied
for processing. Once a tray is emptied, it should be stacked on a pallet to eliminate
re-handling and floor congestion. Once the pallet is full, the trays are shrink-wrapped
and ready for their next use (see Figure 3). During our observations, we noted large
areas of the Pittsburgh P&DC filled with empty letter and flat trays (see Figure 4 and
Figure 5).




                                                         4
Timely Processing of Mail at the Pittsburgh, PA                                                NO-AR-12-008
 Processing and Distribution Center



                     Figure 3: Best Practices for Empty Tray Handling




            Source: OIG photograph, taken May 10, 2011. Example of properly stacked MTE.

                                   Figure 4: Unprocessed MTE




            Source: OIG photograph, taken June 27, 2012. Large areas of the Pittsburgh P&DC were
            filled with empty letter and flat trays.




                                                      5
Timely Processing of Mail at the Pittsburgh, PA                                                  NO-AR-12-008
 Processing and Distribution Center


                                    Figure 5: Unprocessed MTE




           Source: OIG photograph, taken June 27, 2012. Large areas of the Pittsburgh P&DC were filled with
           empty letter and flat trays.

Pittsburgh P&DC management can improve mail flow by redesigning the center's floor
plan. Specifically, during observations we noted that:

   Mail does not arrive at the dock close to where it will be initially processed. This
    requires employees to transport some mail across the building for initial processing.

   The HSTS has a 'U'-shaped setup, placing induction points and takeaway areas
    close to each other, thereby, blocking smooth removal of processed mail. This
    causes congestion during processing.

   Advanced Facer Canceller Systems (AFCS) are not oriented toward the next
    processing point. Cancelled letter mail from the AFCSs is trayed and placed on
    rollers, where it must then be loaded on rolling stock and moved to the next
    operation, rather than just being moved across an aisle or entering a tray system
    (see Figure 6).

   Staging areas lack clear labeling or lane markings to identify mail class or
    processing order.




                                                      6
Timely Processing of Mail at the Pittsburgh, PA                                                     NO-AR-12-008
 Processing and Distribution Center


                                                Figure 6: AFCS




              Source: OIG photograph, dated June 26, 2012. Cancelled letter mail from the Automated Facer
              Canceller System is trayed and placed on the rollers, where they must then be loaded on rolling stock
              and moved to the next operation.

Color Coding of Standard Mail

Color coding of Standard Mail at the Pittsburgh P&DC could use improvement. The
Postal Service uses a system of color coding to facilitate timely movement of Standard
Mail. The color-coding process assigns a color to each day of the week. This enables
easy processing of mail using the FIFO method. Additionally, the tag identifies the
scheduled delivery day for the mail and allows for accurate delayed mail reporting.
During observations the week of June 25, 2012, only 98 of 284 containers of mail (or 35
percent) were properly color coded. The other containers either had incomplete tags
(see Figure 7), the wrong color tag, or no tag. As a result, the Pittsburgh P&DC cannot
ensure timely processing, dispatch, and delivery of Standard Mail.




                                                        7
Timely Processing of Mail at the Pittsburgh, PA                                                  NO-AR-12-008
 Processing and Distribution Center


                             Figure 7: Incomplete Color-Code Tag




           Source: OIG photograph, taken June 27, 2012. The color-code tag contains neither the date
           or time, making it difficult to process the mail in FIFO order and accurately report.

Management Action

During the audit, management at the Pittsburgh P&DC took several actions to improve
operational efficiency. Specifically, they:

   Updated the plant operating plan with current mail volumes and arrival profiles,
    providing a tool to facilitate improved mail flow.

   Reissued their policy on handling empty MTE.

   Improved the accuracy of delayed mail counts, thereby aiding resource allocation.

Recommendations

We recommend the district manager, Western Pennsylvania District:

1. Adjust workhours, assignments, and other operational requirements to ensure the
   Pittsburgh Processing and Distribution Center processes mail timely as compared to
   similar-sized sites.

2. Increase the high-speed tray sorter and low-cost tray sorter’s throughput and
   windows of operation.

3. Increase tray processing capacity and improve mail flow throughout the facility.

4. Train employees to ensure proper color coding of Standard Mail according to Postal
   Service policy.




                                                      8
Timely Processing of Mail at the Pittsburgh, PA                               NO-AR-12-008
 Processing and Distribution Center


Management’s Comments

Management agreed with the recommendations in the report. Specifically, management
stated that in response to recommendation 1, effective October 2012, the Pittsburgh
P&DC agreed to realign the workforce based on the results of a volume arrival profile
and Run Plan Generator. In response to recommendation 2, effective July 2012, the
high-speed tray sorter will dedicate more hours to the processing of Standard A since
mail will be prepared prior to entering the plant. In response to recommendation 3,
effective August 2012, additional letter processing machines are available since the
Automated Parcel Bundle Sorter has been relocated to the Logistics &Distribution
Center. As a result, the low-cost tray sorter will be available to process additional tray
volume. In response to recommendation 4, effective October 2012, in-plant support will
conduct training regarding color-coding procedures for craft and management.

See Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service OIG considers management’s comments responsive to the
recommendations and corrective actions should resolve the issues identified in the
report.




                                                  9
Timely Processing of Mail at the Pittsburgh, PA                                                              NO-AR-12-008
 Processing and Distribution Center




                                     Appendix A: Additional Information

Background

Mail processing is an integrated group of activities7 required to sort and distribute mail
for dispatch and eventual delivery. Post offices, stations, and branches send outgoing
(originating) mail to P&DCs and P&DFs for processing and dispatch for a designated
service area. P&DCs report directly to area offices on mail processing matters. They
also provide instructions on the preparation of collection mail, dispatch schedules, and
sort plan requirements to associate offices and mailers. The Postal Service has more
than 300 plants with mail processing operations.

We divided the plants that process mail into seven groups ranked by FY 2011 mail
volume. The Group 1 plants are the largest and the Group 7 plants the smallest (see
Figure 8).

                     Figure 8: Plant Grouping Based On FY 2011 Mail Volume

              Group                   Number of Plants                      FY 2011 Mail Volume
                1                          43                       Greater than 1,300,000,000 mailpieces
                2                          45                      765,000,000 to 1,3000,000,000 mailpieces
                3                          46                       476,000,000 to 765,000,000 mailpieces
                4                          44                       340,000,000 to 476,000,000 mailpieces
                5                          44                       221,000,000 to 340,000,000 mailpieces
                6                          40                       136,000,000 to 221,000,000 mailpieces
                7                          34                            0 to 136,000,000 mailpieces
Source: EDW, as of August 2012.

The Pittsburgh P&DC is in the Western Pennsylvania District of the Eastern Area. The
Pittsburgh P&DC processed 1.75 billion mailpieces during FY 2011.

Objective, Scope, and Methodology

Our objective was to determine whether mail at the Pittsburgh P&DC was processed
timely. To meet our objective, we conducted interviews; performed analysis of mail
volumes, workhours, and machine output; analyzed trends; and conducted observations
of the facility.

We used computer-processed data from the Mail Condition Reporting System, EDW,
and the Management Operating Data System. We pulled data from October 1, 2009
through June 30, 2012, but did not test controls over these systems. However, we


7
    Mail processing activities include culling, edging, stacking, facing, canceling, sorting, tying, pouching, and bundling.


                                                              10
      Timely Processing of Mail at the Pittsburgh, PA                                              NO-AR-12-008
       Processing and Distribution Center


      checked the reasonableness of results by confirming our analysis and results with
      management and multiple data sources.

      We conducted this performance audit from May through September 2012 in accordance
      with generally accepted government auditing standards and included such tests of
      internal controls as we considered necessary under the circumstances. Those
      standards require that we plan and perform the audit to obtain sufficient, appropriate
      evidence to provide a reasonable basis for our findings and conclusions based on our
      audit objective. We believe that the evidence obtained provides a reasonable basis for
      our findings and conclusions based on our audit objective. We discussed our
      observations and conclusions with management on August 14, 2012, and included their
      comments where appropriate.

      We assessed the reliability of computer-generated data by interviewing agency officials
      knowledgeable about the data. We determined that the data were sufficiently reliable for
      the purposes of this report.

      Prior Audit Coverage

  Report          Report           Final          Monetary                      Report Results
   Title          Number          Report           Impact
                                   Date
Timely          NO-AR-11-        9/13/2011         None        We found the Richmond P&DC experienced
Processing      008                                            difficulties with timely processing of mail during
of Mail at                                                     FY 2010 and Quarter 1 of FY 2011. Delayed
the                                                            mail volume rose from 22.6 million pieces to
Richmond,                                                      54.2 million pieces over a 2-year period. The
VA                                                             causes of the excessive delayed mail were
Processing                                                     inadequate staffing and supervision, low mail
and                                                            throughput on machines, and failure to
Distribution                                                   consistently color code arriving mail. Other
Center                                                         causes included not accurately identifying and
                                                               reporting delayed mail and mail damage caused
                                                               by poor packaging. We recommended the
                                                               district manager, Richmond District, promptly
                                                               assess the current mail volume and swiftly
                                                               adjust workhours, assignments, sort plans,
                                                               transportation, and other operational
                                                               requirements to ensure the Richmond P&DC
                                                               meets customer and service commitments.
                                                               Management agreed with our findings.




                                                          11
Timely Processing of Mail at the Pittsburgh, PA                                         NO-AR-12-008
 Processing and Distribution Center


  Appendix B: Pittsburgh Processing and Distribution Center Fiscal Year 2011
Delayed Mail as a Percentage of First-Handled Pieces Compared to Similar-Sized
                                    Facilities
                                                                                     Percentage of
Ranking                  Facility                 Total Delayed     Total FHP
                                                                                     Delayed Mail
    1        St. Louis P&DC                           299,691,131    2,234,774,229           13.41%
    2        Pittsburgh P&DC                          222,129,520    1,754,253,264           12.66%
    3        Cleveland P&DC                           172,808,131    1,440,732,212           11.99%
    4        Metroplex P&DC                           169,253,645    1,667,209,251           10.15%
    5        Columbus P&DC                            180,225,697    1,884,935,125            9.56%
    6        Richmond P&DC                            150,346,982    1,576,275,620            9.54%
    7        Carol Stream P&DC                        143,449,955    1,686,548,045            8.51%
    8        Palatine P&DC                            110,420,449    1,326,736,959            8.32%
    9        North Metro P&DC                         138,155,152    1,664,835,551            8.30%
   10        Milwaukee P&DC                           122,676,890    1,594,263,961            7.69%
   11        Philadelphia P&DC                        130,910,811    1,746,291,354            7.50%
   12        Cincinnati P&DC                          110,198,794    1,666,123,737            6.61%
   13        Cardiss Collins P&DC                     103,872,323    1,606,023,849            6.47%
   14        Oakland P&DC                             111,343,595    1,765,823,048            6.31%
   15        Salt Lake P&DC                            83,020,464    1,317,853,031            6.30%
   16        Indianapolis P&DC                         87,917,015    1,486,115,876            5.92%
   17        Portland P&DC                             45,346,326      919,812,610            4.93%
   18        Charlotte P&DC                            58,912,764    1,253,088,148            4.70%
   19        Mid-Island P&DC                           90,293,611    1,976,360,200            4.57%
   20        Minneapolis P&DC                          66,125,869    1,659,189,670            3.99%
   21        Dominick V. Daniels P&DC                  89,411,274    2,304,986,774            3.88%
   22        Kansas City P&DC                          74,550,911    1,984,515,906            3.76%
   23        Denver P&DC                               83,679,903    2,525,211,014            3.31%
   24        San Francisco P&DC                        52,519,281    1,611,341,130            3.26%
   25        Nashville P&DC                            41,131,762    1,287,951,463            3.19%
   26        Phoenix P&DC                              57,147,390    1,949,829,752            2.93%
   27        Santa Clarita P&DC                        44,584,011    1,608,454,194            2.77%
   28        Margaret L. Sellers P&DC                  41,160,982    1,558,665,542            2.64%
   29        Jacksonville P&DC                         33,119,942    1,440,063,363            2.30%
   30        North Texas P&DC                          37,364,409    1,686,540,595            2.22%
   31        Fort Worth P&DC                           30,887,110    1,472,165,855            2.10%
   32        Atlanta P&DC                              32,369,378    1,587,577,811            2.04%
   33        Sacramento P&DC                           34,549,161    1,749,080,280            1.98%
   34        Morgan P&DC                               30,669,043    1,578,768,517            1.94%
   35        Baltimore P&DC                            17,282,766    1,057,219,645            1.63%
   36        North Houston P&DC                        19,186,746    1,617,797,009            1.19%
   37        Santa Ana P&DC                            18,917,770    1,597,644,236            1.18%
   38        Los Angeles P&DC                          25,950,584    2,389,500,763            1.09%
   39        Tampa P&DC                                14,108,973    1,622,917,449            0.87%
   40        San Antonio P&DC                          10,954,748    1,338,275,043            0.82%
   41        Houston P&DC                              12,926,264    1,602,289,281            0.81%
   42        Dallas P&DC                                9,445,814    1,308,316,079            0.72%
   43        Seattle P&DC                               2,077,427    1,150,555,853            0.18%
Totals                                              3,411,094,773   70,256,913,294            4.86%
. Source: EDW, as of July 1, 2012.



                                                       12
Timely Processing of Mail at the Pittsburgh, PA                 NO-AR-12-008
 Processing and Distribution Center



                            Appendix C: Management’s Comments




                                                  13
Timely Processing of Mail at the Pittsburgh, PA        NO-AR-12-008
 Processing and Distribution Center




                                                  14
Timely Processing of Mail at the Pittsburgh, PA        NO-AR-12-008
 Processing and Distribution Center




                                                  15
